CERTIFICATE OF COMPLIANCE
No.
MICHAEL G. BOUCHARD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
As required by Supreme Court Rule 33.1(h), I
certify that the PETITION FOR A WRIT OF
CERTIORARI contains 8,992 words, excluding the
parts of the PETITION FOR A WRIT OF
CERTIORARI that are exempted by Supreme
Court Rule 33.1(d).
I declare under the penalty of perjury that the
foregoing is true and correct.
Executed on March 14, 2020.

/SI Michael G. Bouchard
Michael G. Bouchard, Pro Se Petitioner

